<html>
<title> - OVERSIGHT OF THE 2000 CENSUS: EXAMINING THE STATUS OF KEY CENSUS 2000 OPERATIONS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]






 OVERSIGHT OF THE 2000 CENSUS: EXAMINING THE STATUS OF KEY CENSUS 2000 
                               OPERATIONS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 8, 2000

                               __________

                           Serial No. 106-139

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
66-280 CC                    WASHINGTON : 2000






                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                       Subcommittee on the Census

                     DAN MILLER, Florida, Chairman
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
PAUL RYAN, Wisconsin                 DANNY K. DAVIS, Illinois
MARK E. SOUDER, Indiana              HAROLD E. FORD, Jr., Tennessee
------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                   Thomas B. Hofeller, Staff Director
              Lara Chamberlain, Professional Staff Member
               Esther Skelley, Professional Staff Member
           David McMillen, Minority Professional Staff Member
          Mark Stephenson, Minority Professional Staff Member
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 8, 2000.................................     1
Statement of:
    Prewitt, Kenneth, Director, Bureau of Census, accompanied by 
      Mr. Waite, Mr. Raines, Ms. Marks, and Ms. Dukes............    16
Letters, statements, et cetera, submitted for the record by:
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................    13
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............     9
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida, prepared statement of..........................     4
    Prewitt, Kenneth, Director, Bureau of Census:
        Prepared statement of....................................    21
        Samples of mailers.......................................    42
    Ryan, Hon. Paul, a Representative in Congress from the State 
      of Wisconsin, article dated January 4, 2000................    72

 
 OVERSIGHT OF THE 2000 CENSUS: EXAMINING THE STATUS OF KEY CENSUS 2000 
                               OPERATIONS

                              ----------                              


                       TUESDAY, FEBRUARY 8, 2000

                  House of Representatives,
                        Subcommittee on the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2247, Rayburn House Office Building, Hon. Dan Miller 
(chairman of the subcommittee) presiding.
    Present: Representatives Miller, Ryan, Maloney, and Davis.
    Staff present: Jennifer M. Safavian, chief counsel; Timothy 
J. Maney, chief investigator; David Flaherty, senior data 
analyst; Chip Walker, communications director; Erin Yeatman, 
press secretary; Lara Chamberlain and Esther Skelley, 
professional staff members; Jo Powers, assistant press 
secretary; Amy Althoff, clerk; Michelle Ash, minority counsel; 
David McMillen and Mark Stephenson, minority professional staff 
members; and Jean Gosa, minority assistant clerk.
    Mr. Miller. Good morning. A quorum being present, the 
subcommittee will come to order.
    We will begin with an opening statement by myself and the 
ranking member, and will proceed then to Director Prewitt.
    For almost 2 years, this subcommittee has been actively 
involved in the oversight of the 2000 census. This subcommittee 
has held hearings on a wide range of subjects, such as minority 
outreach, local census data, and census addresses.
    Ranking Member Mrs. Maloney and I have held field hearings 
in Miami, Phoenix, and Racine, WI. We have visited inner city 
schools and Indian reservations. We have been to numerous 
schools and visited with children to talk about the importance 
of being counted in the upcoming census.
    This Congress has followed through in its commitment to 
give the Census Bureau the resources it requested to conduct a 
full and accurate census. In fact, the $1.7 billion additional 
funding requested for fiscal year 2000 was approved this past 
fall.
    Today, we are here and the census has, at long last, begun. 
Today's hearings will be one in a series to be held during the 
upcoming months where Congress will have the opportunity to get 
regular updates from the Bureau on the status of the 2000 
census. Where are things going well? Where are problems? And 
what can Congress do to help?
    Once again, this committee has before it Census Bureau 
Director, Dr. Kenneth Prewitt. In December, Dr. Prewitt was 
kind enough to come to my District and join me in census 
outreach efforts. It was an excellent visit. We spent time in a 
local high school, spoke to an assembly full of grade 
schoolers, and met with local community leaders. As Dr. Prewitt 
can attest, the interest in the census is high.
    This past Sunday, there was a front page article in my 
local hometown newspaper, the Bradenton Herald. The front page 
says, ``Census Groups Reach Out to Area Minorities,'' which is 
exactly the job that the Census Bureau should be doing, and it 
talks about a Complete Count Committee meeting at Holy Cross 
Catholic Church in Palmetto, where the Complete Count Committee 
and Census people were involved in reaching out to the Hispanic 
community, and they said approximately 70 people, mostly 
Hispanics, were in attendance.
    The Reverend Necantor Labato, who is a priest at Holy Cross 
Catholic Church, where they have 1,000 Hispanics, a total of 
4,300 parishioners, said--let me just quote a couple things--
``Don't be afraid to answer. Don't be afraid to get involved. 
Those without immigration papers, they are afraid, and I think 
they are wrong to be afraid, but the reality is they are.''
    Labato said Census officials convinced him that Federal 
Immigration officials, taxing authorities, and other Government 
agencies have no access to personal census data.
    To quote the priest, ``If I knew or even was suspicious 
that it would be bad for you Hispanic people, I would not be 
involved and would not allow them to use the parish hall.''
    That's exactly the type effort we need to reach out to the 
under-counted populations.
    They have, I see, a fair coming up on February 19th at a 
title one school, Tillman Elementary School. They're going to 
be at Wal-Mart Supercenter, where the van is going to be 
showing up on February 27th, at another community fair on March 
18th. This is only 1 of 550 census offices, but it is nice to 
see that we are making front page of the paper, getting the 
word out, and that local offices are working.
    Dr. Prewitt last month traveled to Alaska to officially 
enumerate the first person in the 2000 census. Arriving in the 
Bering Sea fishing village of Unalakleet via dog sled, a 
photograph that will go down in history, Director Prewitt 
counted 82-year-old Stanton Katchatag and his wife in their 
one-story cedar frame house.
    Not only do the Native people of Alaska represent a 
difficult population to count because of the extreme weather 
and remote locations, Alaska, in 1990, had the Nation's lowest 
mail response rate of 52 percent.
    Of course, we are hopeful that the $102 million ad campaign 
will help the response rates rise. I'm sure virtually everyone 
in this room has seen or heard at least one census ad. Many of 
us saw the ad that aired during the Super Bowl. I also 
understand that there is an upcoming shift in the focus of the 
ad campaign, and hope to hear more about it.
    Local outreach efforts, combined with the 90 Plus Five 
campaign, where local governments are being asked to increase 
their 1990 mail response rates by 5 percent, leave us hopeful 
that we can break the downward spiral of mail response rates 
that we have been experiencing for the past three decades.
    I know that the announcement letters went out last month. 
How is that program being received by the 39,000 governments 
nationwide?
    Another great task is the massive employment effort that is 
currently underway. Hundreds of thousands of enumerators must 
be hired and trained from an applicant pool of some 3 million 
people. I recently read a news account that on the Navajo 
Reservation near Window Rock, Arizona, the Bureau is having 
trouble filling the nearly 1,500 census jobs, despite high 
unemployment and a $10 hourly wage.
    There are reports out of Tahlequah, OK, that the 14-county 
region of the Cherokee Nation has only received half of the 
applications needed.
    Also disturbing was a comment by the Cherokee chief, Chad 
Smith, who said that some tribal members see no reason to 
cooperate with the U.S. Government. The largest percentage 
undercount in 1990 was among the Native American population, 
and nowhere is trust more of an issue than on reservations. I 
am very interested in how the Bureau is working to overcome 
these issues.
    I have also read reports that there are employment problems 
in Kentucky, where nearly half the counties don't have enough 
enumerators. Many of these areas are rural or non-city-style 
addresses, and thus are subject to either update leave or list 
enumerate procedures. Are these rural area problems nationwide 
or just in isolated pockets? And what is the Bureau doing to 
alleviate them?
    Much of the success of this census hinges on the mail 
response rate. It is, of course, necessary to prepare a worst-
case scenario. What if the anticipated mail response rate is 
not 61 percent but lower? It will not be sufficient for the 
Bureau to come before Congress and simply ask for more money. 
The Members of this body--and rightfully so--will want to know 
exactly how the money is to be spent, as well as what went 
wrong with the original plan.
    I hope today that Director Prewitt can shed some light on 
what contingency plans the Bureau has and give us a sense of 
where we stand just 7 weeks from census day.
    As you are aware, Director Prewitt, in your invitation 
letter you were asked to be prepared to comment on other areas, 
including: Providing an overview of where we are in the 
Bureau's operational time line, as well as what key activities 
and dates lay ahead. What is the status of the Bureau's address 
listing program and new construction listing program?
    How is the data capture system--which retrieves information 
from millions of census forms--holding up under testing? How is 
the staffing and operation of the local census offices 
proceeding?
    I look forward to your testimony, Dr. Prewitt, and thank 
you for appearing in the subcommittee.
    [The prepared statement of Hon. Dan Miller follows:]
    [GRAPHIC] [TIFF OMITTED] T6280.001
    
    [GRAPHIC] [TIFF OMITTED] T6280.002
    
    [GRAPHIC] [TIFF OMITTED] T6280.003
    
    Mr. Miller. Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman.
    Welcome, Dr. Prewitt. I compliment you on your dedication 
and commitment, going all the way to Alaska via dog sled to 
remote areas. I think that is a great testimony of your 
commitment to making sure that we contact as many people as 
possible.
    I'm glad that we are having this hearing today, and I 
really want to thank the chairman for agreeing to my request to 
have it. It is important that, as the Census Bureau begins 
reviewing for full-scale operations, Congress and the American 
public stay informed on the progress of the largest peacetime 
mobilization ever, the U.S. Census civic ceremony.
    From reading your testimony, Dr. Prewitt, it appears that 
the 2000 census operations are on schedule and on budget. 
Things seem to be going according to plan. Recruiting is on 
track, if not ahead of schedule; 520 local census offices are 
open and operational. There should be one in each Congressional 
District. The paid advertising campaign is moving smoothly into 
its most active phase. And the address list is nearly complete.
    I must say I was thrilled, as the chairman mentioned, when 
we saw the ad on the Super Bowl, and I had received from Dr. 
Prewitt's office a huge book that has a listing of when the 
advertisements are going to be on the air so that Members of 
Congress can let their constituents know, let the groups that 
are working with them know, so that they can be watching and 
getting the word out.
    Considering the voices of gloom and doom that were 
prevalent a year ago, I think we can all take pride in the 
excellent work of the career professionals at the Census 
Bureau.
    Thank you very much.
    Additionally, we in Congress should be pleased that we were 
able to produce, in the best bipartisan manner, $4.5 billion 
the Bureau told us that they needed, amidst a tremendously 
complicated budget scenario.
    In spite of all the good tidings for the census, there is 
nothing we or the Census Bureau can do to prevent complications 
that probably will arise. Of course, there are going to be 
problems. You cannot conduct an operation of this scale without 
some problems. Hiring over half of a million people, training 
these half of a million people, and sending them out into the 
field is a daunting task.
    I know today we will hear from Director Prewitt that the 
hiring process is on track, but what if, for example, the mail-
back response rate is less than we expect? Or what if, the 
economy doing so well, the Bureau cannot find enough workers to 
conduct the census?
    Let me be clear. I do not think these things will happen. I 
believe that this census will be one of the best in our 
Nation's history. Do you hear that, Dr. Prewitt? And I am 
confident that the extensive planning the Census Bureau has 
done over the last decade will pay off. But that does not mean 
that we should not prepare for all contingencies, as the GAO 
has suggested.
    I have introduced legislation, H.R. 3581, to create a 
contingency fund for the 2000 census. If there are problems 
with the mail response rate or with the hiring program, funds 
need to be available to respond to glitches fast so that the 
larger job can be done on time.
    Following on recommendations from the GAO report, my bill 
would also expand the labor pool for specific groups of people, 
including active duty military personnel and individuals who 
have received buy-outs from the Federal Government.
    Last, it would allow recipients of Federal assistance to 
work for the census without a loss of benefits. This is a great 
idea, one that was originally included in a bill that my friend 
and colleague, Carrie Meek, introduced. This bill has been 
reported out of the Government Reform Committee with the 
chairman's support.
    These are common-sense preventatives to ensure a good 
census.
    As I've said, Mr. Chairman, I am happy to learn that every 
time table and task for the 2000 census is currently on track. 
I look forward to hearing the details of the many census 
operations from our esteemed witness, the Honorable Kenneth 
Prewitt.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]
[GRAPHIC] [TIFF OMITTED] T6280.004

[GRAPHIC] [TIFF OMITTED] T6280.005

    Mr. Miller. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. I think I'll make a few 
comments.
    Given the fact that this is the beginning of the new 
millennium and it is also the first time that we've come 
together, I simply want to indicate how much pleasure I got 
from working with both you and the ranking member in the old 
millennium planning what we're going to do in this one.
    Mr. Chairman, let me commend you for calling this hearing 
to examine the status of operations for the 2000 census. 
Likewise, I'd also like to thank Dr. Prewitt and the Census 
Bureau for his not only being here today, but for the 
tremendous work that they've done getting us to this point.
    As we rapidly prepare for the 2000 census, the largest 
peacetime mobilization, it is important that we continue to 
examine the status of key operations.
    In addition to examining the status of these operations, it 
is also important that community leaders at every level get 
fully involved.
    I'm pleased to note that my own Full Count Committee in 
Chicago has been actively engaged in raising the awareness of 
the importance of participation in the 2000 census.
    Also, last week I joined with Mayor Daley and other 
community leaders in my District to underscore how critical the 
census is in determining services, programs, and 
representation. That particular community was seriously 
undercounted in the 1990 census.
    Our charge, with our increased technology and understanding 
of the past, is to ensure that we get better and better and 
better at conducting this important activity.
    The Census Bureau's commitment to the $102 million paid 
advertising campaign is, in fact, working, and is serving to 
heighten awareness of the 2000 census. There were, of course, 
the advertisements that all of you who watched the Super Bowl 
saw and on radio, ads in magazines and newspapers, and I've 
seen the ads on billboards.
    This commitment to advertisement in rural and urban 
communities could serve the goal of greater participation of 
the 2000 census. Ultimately, greater participation will require 
the trust of the people to return those forms and to answer the 
call of census enumerators.
    I also would like to take this opportunity to commend my 
city, the city of Chicago, for the tremendous effort that has 
been put forth by city government to raise awareness and the 
comprehensive program that has been put together under the 
leadership of Mayor Daley.
    I also want to commend the Chicago media, both its print 
and electronic. I've seen editorials in the ``Chicago Sun 
Times,'' in the ``Chicago Tribune,'' in the ``Chicago Daily 
Defender'' alerting people to the fact that there is nothing to 
fear, and that, in all likelihood, Franklin Delano Roosevelt 
could be quoted when he said that the only thing that they have 
to fear would, in fact, be fear, itself, but that this data, 
this information cannot be used, will not be used, has not been 
used for any purpose other than to count the people.
    I look forward to the testimony of Dr. Prewitt, and 
certainly know that he is going to shed some additional light 
on those challenges which are ahead.
    I thank you, Mr. Chairman, and yield back the rest of the 
time.
    [The prepared statement of Hon. Danny K. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T6280.006
    
    [GRAPHIC] [TIFF OMITTED] T6280.007
    
    [GRAPHIC] [TIFF OMITTED] T6280.008
    
    Mr. Miller. Dr. Prewitt. With you is Mr. Waite, Mr. Raines, 
Ms. Marks, and Ms. Dukes. Why don't you all come forward and be 
sworn, just in case your testimony is needed.
    [Witnesses sworn.]
    Mr. Miller. Director Prewitt, your opening statement, sir.

   STATEMENT OF KENNETH PREWITT, DIRECTOR, BUREAU OF CENSUS, 
 ACCOMPANIED BY MR. WAITE, MR. RAINES, MS. MARKS, AND MS. DUKES

    Dr. Prewitt. Thank you very much, Mr. Chairman, Mrs. 
Maloney, Mr. Davis. I do want to begin by thanking you for your 
leadership in establishing the bipartisan congressional support 
for this census effort. The partnership with Congress has taken 
off in quite impressive ways, and that partnership does send a 
strong message across America that all of us have to be united 
in the goal of achieving a complete and accurate census.
    The congressional partnership is launched. Members of 
Congress have really taken on the challenge promoting the 
census--local town hall meetings, public service announcements, 
local census grand openings, publicizing census jobs, and, 
obviously, rather heavy use of your own congressional 
newsletters.
    What I will do in these oral remarks is to quickly, and 
therefore necessarily superficially, offer a broad overview of 
current progress. My written testimony attempts to cover 
specific issues raised in your invitation letter in more depth.
    The major message is that census 2000 is on track, is on 
schedule. Were this not so, I would be bringing it to your 
attention. There is no doubt in my mind that we will need the 
full support of Congress, particularly of this committee, were 
we to foresee or encounter any major threats to successful 
census.
    Since I reported to you last fall, the actual enumeration 
for census 2000 has begun. We have produced a master address 
file containing approximately 120 million addresses, have 
printed the questionnaires that will go to each of these 
addresses, have opened up all 520 local census offices, are 
intensely promoting the census, and actively seeking to hire 
the army of workers we will need to do the job.
    As we speak, census takers are systematically canvasing the 
remote areas of Alaska to complete a questionnaire for each 
housing unit and its inhabitants. And, as was referenced, I did 
have the honor of conducting the first enumeration in 
Unalakleet, AK, a village on the Bering Sea about 400 miles 
northwest of Anchorage.
    I do want to put into the record that I was under the 
supervision of a team leader, because I was considered a 
trainee, and I would tell you that I was quite moved. After I 
finished that first enumeration, the first one in the Nation, 
first one in the millennium, if you will, I had a lump in my 
throat and I felt very proud to have initiated what we know 
will be a very major, successful census. Indeed, if the warm 
welcome that we received in Unalakleet, including whale 
blubber, for which some of us did acquire a taste--it is an 
acquired taste--if that warm welcome can be replicated 
throughout this country, we will, indeed, have a successful 
census.
    What Unalakleet means is, ``The wind that blows to the 
east.'' What we tried to signal with that successful 
enumeration--we've now counted 100 percent of that village--is 
to try to send a signal across the country that if we can do 
100 percent in a remote village on the edge of the Bering Sea, 
we should be able to do 100 percent in the rest of the country.
    Why are we already counting the people in remote Alaska? 
Because travel is easier now than it will be when the spring 
thaws make the villages inaccessible, and many Alaska Natives 
who congregate in their villages in winter will have dispersed 
to fish and hunt.
    This is just one of the many examples where the Census 
Bureau has crafted procedures to meet very specific enumeration 
challenges.
    The next big field operation begins March 3rd. Census 
enumerators will deliver questionnaires to some 20 million 
housing units in the update/leave areas of the country. These 
areas are those with different address types, mostly in small 
towns and rural areas where the address systems have less 
geographic structure.
    Census enumerators, in addition to leaving a questionnaire 
at each house, will also check for any missing addresses. This 
is what we mean by the ``update'' part. We update our address 
file.
    And, of course, householders are expected to mail back the 
form in the postage paid envelope.
    Then, beginning March 13th continuing through March 15th, 
U.S. Postal Service will deliver questionnaires to some 98 
million addresses in the mail out and mail back areas of the 
country. These are areas where the housing units have city-
style addresses, such a 101 Main Street.
    These addresses are mostly in major urban centers, but also 
in many small-and mid-sized towns and some rural areas. As in 
update/leave areas, householders are expected to return the 
mail.
    Also, beginning March 13th and continuing through March and 
April, census enumerators will visit slightly less than a 
million housing units in list enumerate areas, similar to 
remote Alaska but where an early start was not dictated by 
special conditions. These are remote rural areas or areas of 
significant seasonal resident populations where it is not 
efficient to compile a pre-census address list. At the time 
census enumerators visit these housing units, they will also 
list the unit and complete the questionnaire; thus, there is no 
separate non-response followup for these areas because, indeed, 
we will have their information.
    Obviously, for housing units not returning the census form, 
currently estimated at approximately 46 million, we will send 
enumerators in the non-response followup operation. This 
operation is scheduled to begin April 27 and will continue for 
10 weeks until July 1st. That 10-week period is, of course, an 
average. Some areas will require less time and some more.
    Let me turn quickly to marketing. Through our marketing 
program, we are aggressively seeking to encourage response to 
the census so that we can keep the non-response workload as 
small as possible. We began our paid advertising campaign last 
November, placing ads to educate people about the importance 
and potential benefits of the census. We have now entered the 
second phase of our paid advertising campaign, designed to 
motivate response with the message, ``This is your future. 
Don't leave it blank.''
    During the months of February and March, census 2000 will 
be among the top two or three advertisers in the Nation. Ads 
will appear on every television network and on cable 
television, radio, magazines, newspapers, billboards, subways, 
buses, and so on.
    Overall, the census 2000 advertising campaign will comprise 
some 250 different creative elements and more than 130,000 
individual media placements.
    Paid advertising is just one piece of the Census Bureau's 
integrated marketing strategy for census 2000. The other pieces 
include partnership; the package that includes the advance 
letter, questionnaire, and thank you reminder post cards; media 
relations; promotions and special events--many of which have 
already been referenced in your opening comments.
    Each of these pieces has its own strengths, and by working 
in concert we hope we will reach and motivate everyone to 
participate in the census.
    Of these, partnership is perhaps the most important. We 
already have some 55,000 partnership agreements and Complete 
Count Committees in State, local, and tribal governments, 
businesses, national, and community-based organizations. 
Educators have ordered over 800,000 teaching kits for use in 
our Census in Schools initiative.
    Next week, 12 recreational vehicles, one in each census 
region, will set out across the country to promote census 2000. 
We have a very high-profile launch event planned for next 
Tuesday, February 15th.
    Each of these vehicles will be equipped with exhibits, 
videos, printed information and other giveaways to spread the 
message that census 2000 is on the way. This road tour is 
designed to generate media attention in various markets, from 
small towns to large cities, and enhance the efforts of our 
partnership and media specialists.
    Finally, as the chairman has referenced, we have launched 
an initiative to encourage grassroots participation in every 
town, city, county, State, and tribal area in the Nation. We 
are providing the highest elected official, as well as Members 
of Congress, with tool kits that include sample news releases, 
articles, talking points, and other written materials; a 
dedicated website to enable participants to obtain updated 
information and download promotional materials; and a toll-free 
number to allow elected officials to call for additional 
information.
    In this campaign, we are challenging communities to 
increase their overall response rates in census 2000 by at 
least 5 percentage points over their 1990 level. This 
component, called ``90 Plus Five,'' is setting a public target 
for mail-back of 70 percent nationwide. That is a 5 percent 
increase from the 1990 base.
    To draw maximum public attention to this effort, mail-back 
response rates for each jurisdiction will be posted on the 
Internet and otherwise made public and updated daily from March 
27 to April 11. It will then be followed by a second component, 
Because You Count, which is aimed at increasing cooperation 
with census enumerators when they come knocking on doors.
    We are making every effort to convert this census into a 
civic event of the highest order.
    We are gratified by the enthusiastic, even exuberant, 
involvement in the census by so many partners and local 
governments. I might note, however, that many of the 
promotional events are independently planned and managed. They 
are not, even indirectly, under the control of the Census 
Bureau. It is likely that the exuberance at times will generate 
events or materials that might receive less than positive 
public response. I hope that this committee will appreciate 
that not every news story or letter from a constituent about 
the census will be describing something that the Census Bureau, 
itself, is responsible for.
    Turning quickly then to hiring--clearly, one of the key 
challenges to a successful census is our ability to recruit 
hundreds of thousands of short-term, part-time workers in an 
exceptionally tight labor market. Hiring is progressing well, 
and at this time we have no reason to believe that we will be 
unable to reach our goal.
    We have met hiring goals for every operation thus far, and 
in early January we launched a blitz to hire 500,000 temporary 
census workers to fill the 860,000 jobs we will need in 2000, 
most of which will be for non-response followup.
    We believe we will need to test 3 million individuals for 
these jobs, about 6 per position, because of anticipated 
turnover, applicants who fail background checks, and so forth.
    More specifically, we want to have a qualified applicant 
pool of 2.4 million individuals. Our goal, of course, is to 
hire local people who are familiar with their communities.
    So far, we have recruited nearly 1.2 million qualified 
applicants, half of the total needed and slightly ahead of our 
target for February 1st. April 19th is our target date for the 
qualified applicant pool of 2.4 million.
    To keep on target with recruitment goals, we are using paid 
advertising on television, radio, print ads, and on buses. 
We've also established a job information site on the Internet. 
In one recent week, we had over 400,000 calls to our telephone 
job line and nearly 700,000 hits on our Internet recruitment 
site, so there is great and, we believe, growing interest in 
census jobs.
    We are partnering with a number of organizations to help us 
achieve our goal. I will mention just two under a grant from 
the Department of Labor. Goodwill Industries is working to 
identify welfare-to-work participants who are qualified for 
census jobs and is using its retail stores to distribute 
recruiting information to individuals who are not in the 
welfare-to-work program.
    We are also partnering with the Corporation for National 
Service, which has 30,000 partner agencies with more than 
700,000 volunteers in its three programs, and they are 
assisting us in our recruitment efforts.
    Then, sir, I want to make quick reference to our 
contractors. As part of this progress report, I want to remind 
the committee that a significant percentage of our budget is 
contracted out to private industry, with a paid advertising 
campaign, of course, but also for data capture, telephone 
assistance centers, network operations, electronic data 
dissemination, and other key operations.
    These technological contracts add up to approximately $1 
billion. Yesterday, we convened senior officials from Lockheed 
Martin, TRW, Unisys, IBM, and other contractors. Each company 
reported on its progress to date. The uniform message is that 
they are ready to go. More than that, these senior officials 
publicly expressed their pride at being associated with census 
2000 and their individual and collective commitment to work 
noncompetitively in this endeavor and, in fact, to go the extra 
mile.
    Mr. Chairman, I conclude these opening remarks with a 
pledge under oath to this committee. The Census Bureau is now 
engaged in the massive, complex effort, one that the GAO has 
described--and as you all have referenced--as the largest 
peacetime mobilization in the Nation's history. Literally 
hundreds and hundreds of individual operations are already 
underway, and every Census Bureau employee responsible for some 
part of census 2000 is fully engaged.
    At the same time, this committee, the General Accounting 
Office, the Congressional Monitoring Board, and other units of 
the Government must fulfill their appropriate oversight 
functions.
    I very much appreciate that, in discharging this 
committee's oversight responsibilities, you, Mr. Chairman, have 
taken into account that the census is underway and that we are 
fully engaged.
    I also report to you that I met a few days ago with senior 
officers of the GAO, and we jointly agreed that the principle 
that should guide GAO oversight at this stage is constructive 
engagement, the phrase that was introduced by Nancy Kingsbury, 
Assistant Comptroller General.
    I have written the co-chairs of the Congressional 
Monitoring Board asking for a meeting to review how best to 
ensure that its considerable oversight activities are conducted 
in a manner compatible with the intense operational pressures 
we now face.
    My pledge to you and to other oversight agencies is that we 
will bring to your attention quickly any operational crisis 
that could put the census at risk. Obviously, in an effort of 
this complexity and enormity, there will be dozens of small-
scale problems every day. I could give you examples of today's 
issue. The ones of last week have been solved. The ones of next 
week are not yet known to us.
    My pledge is not to try to inform you of each and every one 
of these small-scale issues, but to take seriously my 
responsibility to inform you if we foresee or encounter a 
problem that could put the census at risk.
    As of today, the important word is that no such threat is 
in view. Census 2000 is on track and on schedule.
    Thank you.
    [The prepared statement of Dr. Prewitt follows:]
    [GRAPHIC] [TIFF OMITTED] T6280.009
    
    [GRAPHIC] [TIFF OMITTED] T6280.010
    
    [GRAPHIC] [TIFF OMITTED] T6280.011
    
    [GRAPHIC] [TIFF OMITTED] T6280.012
    
    [GRAPHIC] [TIFF OMITTED] T6280.013
    
    [GRAPHIC] [TIFF OMITTED] T6280.014
    
    [GRAPHIC] [TIFF OMITTED] T6280.015
    
    [GRAPHIC] [TIFF OMITTED] T6280.016
    
    [GRAPHIC] [TIFF OMITTED] T6280.017
    
    [GRAPHIC] [TIFF OMITTED] T6280.018
    
    [GRAPHIC] [TIFF OMITTED] T6280.019
    
    [GRAPHIC] [TIFF OMITTED] T6280.020
    
    [GRAPHIC] [TIFF OMITTED] T6280.021
    
    [GRAPHIC] [TIFF OMITTED] T6280.022
    
    [GRAPHIC] [TIFF OMITTED] T6280.023
    
    Mr. Miller. Thank you, Director Prewitt.
    It is exciting to know that the first people in this 
country have been counted, and the process is going to go very 
quickly over these next few months.
    Let me clarify a couple things on dates.
    Initially, for the people that are going to be responding 
by mail, a card will go in the mail to advise people a census 
form is on the way, correct?
    Dr. Prewitt. The first week of March. Yes, sir.
    Mr. Miller. That's the first week in March. And then on the 
13th or so the forms will actually go in the mail?
    Dr. Prewitt. Yes. The Post Office is scheduled to mail 
between March 13th and 15th.
    Mr. Miller. That's a huge undertaking for the Post Office, 
so you have to work closely with them to prepare for that type 
of system.
    And then another card, a reminder card, will go in the 
mail----
    Dr. Prewitt. During the last week of March.
    Mr. Miller. OK. The design of these cards--somebody is 
helping with that?
    Dr. Prewitt. Yes, sir. They have been researched.
    Mr. Miller. There's a little color to them or something?
    Dr. Prewitt. Yes.
    Mr. Miller. OK. Good.
    Dr. Prewitt. As a matter of fact, on that particular issue, 
not too much color. We want to make sure that these don't look 
like junk mail.
    Mr. Miller. OK.
    Dr. Prewitt. And so we did subject them to a lot of testing 
to try to make them look very official.
    Mr. Miller. Good. That's the idea.
    Now, when do you start doing the non-response followup? 
When the forms come in, they go to four different distribution 
centers and they're scanned. The envelopes will have a bar code 
on them, correct?
    Dr. Prewitt. Yes, sir.
    Mr. Miller. And that's how you can very quickly tell that 
day. It's automated to know the response rate.
    Dr. Prewitt. When the envelopes come in, they are 
immediately scanned to the address. We're not yet scanning the 
questionnaire itself.
    Mr. Miller. Right.
    Dr. Prewitt. Only the fact that the envelope has come in, 
the bar-coded envelope has come in.
    Mr. Miller. And that bar-coded envelope will tell the 
address of the person?
    Dr. Prewitt. Yes.
    Mr. Miller. OK. And that will be fed in so we will know.
    Then the non-response followup will begin when? Give me the 
date.
    Dr. Prewitt. April 27th.
    Mr. Miller. April 27th for 10 weeks, until----
    Dr. Prewitt. Early July.
    Mr. Miller. Early July. Now, how do you close out? Would 
you explain how closeout will work on this non-response 
followup? They'll go knock on the door? I mean, how does that 
work?
    Dr. Prewitt. Our basic rule is that we try to make six 
contacts per household, three in person and three by phone. We 
get the phone numbers as best we can by either using, 
obviously, phone books, other systems, or by asking a neighbor 
and so forth, so we do have a three visit and three phone call 
limit. After that, we believe we're not likely to find the 
person.
    Mr. Miller. How long a period of time will that be over?
    Dr. Prewitt. Well, our rules call that visits and phone 
calls have to be made at different times of the day and 
different days of the week, so that if you try to find the 
person on a Wednesday afternoon, then you should go back the 
next time on a Saturday morning, the next time on a Sunday 
night, and so forth. And that will be spread across a number of 
weeks. Of course, you've got an enumerator with a stack of non-
response followup households to visit, and they will be doing 
these during this period of time.
    They will then report back to their crew leaders, of 
course, when they no longer believe that they're able to reach 
one of those households.
    Obviously, we're in a bind at all times in this. We're 
trying to save the taxpayer money. Every time we send an 
enumerator to a household we pay their transportation cost, we 
pay their hourly cost, and if we have reason to believe that 
after six efforts that we're not likely to get a response, then 
we won't send them out an 8th, 9th, 10th time. It wouldn't be a 
prudent use of our resources.
    Mr. Miller. Then what? Then what, after we don't have any 
response?
    Dr. Prewitt. We then do have what we call ``closeout 
procedures,'' or ``final attempt'' where possibly you go to 
proxy interviews, which is to say we ask a neighbor, or someone 
who might have reason to know who is in that housing unit? Can 
you give us a rough estimate, as best you can, about the 
composition of that household, and then we'll record that as a 
response. It is tagged in the file as a proxy response.
    Mr. Miller. Is this any different from 1990?
    Dr. Prewitt. No.
    Mr. Miller. The time for the six contacts--I mean, if 
someone is on vacation--Easter is late this year, and people 
are going on holiday vacations. It could be a week or two.
    Dr. Prewitt. Right.
    Mr. Miller. So there will be time to spread it out?
    Dr. Prewitt. Certainly. Yes, sir. Spread across.
    Mr. Miller. All right.
    Dr. Prewitt. And, again, using neighbors often.
    Mr. Miller. Right.
    Dr. Prewitt. Saying, ``Look, we knocked on the door of 
somebody down the street, and nobody seems to be home,'' and 
they say, ``Well, that's because they're gone for 2 weeks.'' 
Then we wait 2 weeks. We tag that and we wouldn't come back for 
2 weeks. So it's spread across a fairly extensive period of 
time.
    Mr. Miller. Could you comment some more on this contingency 
plan? I know in your statement you said you'll come back to 
Congress, which, of course----
    Dr. Prewitt. Right.
    Mr. Miller. And I know there are all kinds of 
contingencies----
    Dr. Prewitt. Yes.
    Mr. Miller [continuing]. From the individual areas that may 
have a low response rate, or nationwide. I mean, if the 
response rate is 51 percent, we've got a crisis, obviously.
    Dr. Prewitt. Sure.
    Mr. Miller. So can you give me some more explanation what 
the contingency plan is?
    Dr. Prewitt. We have a large number of contingency 
operations for all kinds of activities, and we can talk about 
those specifically. What happens if we lose a local office? 
What happens if something happens in a data capture center? We 
have numerous, numerous contingencies built into all kinds of 
our operations--technological backup systems, capacity to move 
people quickly. If something happens to an office, we would 
actually be able to reduplicate that office quickly in another 
office. So we have a lot of those kind of contingency plans.
    But I think you are specifically addressing, of course, the 
question of the mail-back response?
    Mr. Miller. Yes. Let's talk about that.
    Dr. Prewitt. Could I spend a few moments explaining the 61 
percent? That may help us understand the contingencies that we 
have to put in place.
    Mr. Miller. OK.
    Dr. Prewitt. After 1990, when the initial mail-back 
response rate came in at 65 percent--down 10 percent, as you 
know, from the previous decade--the early work of the Census 
Bureau looking at the pattern of response, responses to other 
kinds of surveys, the changing demography in the country, and 
so forth, led us to an estimate as low as 55 percent.
    If you'd gone back to Census Bureau documents in the 
immediate period after 1990, most of the conversation would 
have been, ``We have got to anticipate the possibility of a 
mail-back response rate as low as 55 percent in 2000.''
    The Census Bureau then engaged in a number of experiments. 
The experiments included what would happen if you could make 
the form more user friendly.
    The 1990 form is a FOSDIC-based form, which was also a 
technological innovation by the Census Bureau. Fill in the 
circles so it could be data scanned.
    Well, when you're doing a FOSDIC form, you have to have 
much more complicated instructions. So when you look at it, you 
can open it up and say, ``This is just too hard. I'm just not 
going to do it.'' And we don't know how many people out there 
actually don't do the census form because they are intimidated 
by it, but we do know that, once we designed a more user-
friendly form--and you've seen the form, of course. It's very 
readable. It's simple questions. You just write it in, and so 
forth. All of that, of course, was based upon the fact that we 
could do optical scanning recognition. We had a higher quality 
of technology to do the data scanning in 2000, so we could 
design a form where, instead of putting in a four and a seven 
in two little FOSDIC circles, you could simply write in ``47.'' 
It also made it a more attractive format.
    That's one experiment.
    We obviously looked into the whole issue of multiple 
languages, and we did take the questionnaire up to six 
languages, as you know, as we've testified before.
    We also went to three mailings instead of one mailing.
    Another thing we did in 2000 that we had not done in 1990, 
we make it more prominent on the envelope that this is required 
by law. That was another experiment.
    So we did a series of experiments, and let me be completely 
candid with you so you won't have to remind me--one of those 
experiments was also the second mailing experiment.
    Setting aside for a moment the second mailing experiment, 
the other experiments all led us to move from 55 to 61 percent 
as our estimate. That's the basis of it. It's rooted in some 
experience with testing different kinds of procedures. Mailing 
procedures, form procedures, and so forth got us to 61 percent.
    Because the Census Bureau is a data-driven organization, it 
doesn't like to estimate the behavior of the American 
population where it doesn't have evidence. The 61 percent does 
not take into account the impact of the advertising campaign or 
the promotional effort, because we have no experience to sit 
here and tell the U.S. Congress that that will increase it by 3 
or 4 or 5 percent. We just don't know.
    Obviously, the fact that we've gone public with the Plus 
Five campaign is based upon our increasing confidence that we 
will do better than the 61 percent, but we only have evidence 
to predict a 61 percent response rate.
    That's a long answer, but I wanted you to know that 61 
percent wasn't just pulled out of the hat. It was based upon 
demographic modeling, modeling of response rates, attention to 
what will happen if you change the form this way, if you send 
out three mailings instead of just the one mailing, if you use 
first class instead of third class, and so forth.
    Now, what is our contingency plan if it is below 61 
percent? There are two big concerns. There are actually a lot 
of big ones, but I'll just talk about the two biggest ones.
    Mr. Miller. I've gone well past my 5 minutes.
    Dr. Prewitt. I'm sorry.
    Mr. Miller. But I'm interested, and I think the rest of the 
committee is, too.
    Mrs. Maloney. We are, too.
    Mr. Miller. OK. Go ahead.
    Dr. Prewitt. Two big concerns, obviously, at this stage. 
One is if we can recruit enough people to do the job, and the 
other is the response rate. Those two concerns interact.
    Obviously, if we do extremely well with our recruitment 
pool and the response rate slips a little bit, we still have 
enough people to go out and do the job. Or if we don't do so 
well in our recruitment but our response rate is slightly 
higher, then we're not as anxious about the fact that we only 
have 1.8 or 2 million people in our applicant pool and not 2.4. 
Those two things are very tightly linked.
    Then there is a third big component, which is the budget. 
Obviously, we budgeted it at 61 percent and that labor pool. So 
if the response rate were to dip much below 61 percent, 60 
percent, 59 percent, we've got enough flexibility that we think 
we can recover from that--57 percent, 56 percent, we're very 
anxious and we're not sure we've got the flexibility and the 
capacity to recover.
    Now, what is our contingency for that? And I'm not trying 
to be evasive. It depends almost entirely on what's happened to 
our recruitment pool, because if at that point we're behind in 
our recruitment as well as having a lower response rate, we 
actually have a crisis, and we have nothing to say to you as a 
contingency other than we will have to go out and probably 
increase the wage rate. That would be one way we would increase 
the labor pool, and that would, obviously, cost more money. We 
obviously would have to perhaps extend the time that we're in 
the field, because if we have got to go out and find--let us 
use extremes. If it is a 40 percent response rate we can't do 
non-response followup in 10 weeks, in all likelihood, unless we 
hired, you know, 3 million people instead of 500,000 people. 
Even then, the management of that would be not something that 
we wanted to try to do.
    So the contingency plan has got to be--if there's a serious 
slighting of that response rate, it's got to be figured out in 
terms of the size of the recruitment pool you've got in place, 
and if it's insufficient, there's nothing that we can put in 
place. We can put in a contingency for losing an office. We can 
put in a contingency for losing a data capture center. We can 
put in a contingency for address mail-back problems. We can put 
in a contingency for lots of things. But there is really no 
thing that you can do if you're really looking at a 55 or 50 
percent response rate when we expect it to be 61, short of 
rebuilding the census, which is what we would have to do.
    Since I know this is important, I'll just go on with one 
other sentence on this. The important thing is, we will know as 
early as April 1 or 2 whether we will need a hearing on April 
12th, which is our date for beginning to cut for non-response 
followup.
    That is, our internal models tell us at what rate we expect 
to get responses, and for the most part the American people 
respond to something like this, if they are going to, quickly, 
and then it begins to taper off. There's no reason to presume 
that you're going to get them. If you haven't gotten them by 
April 1st, you're going to get a few more scattered out all the 
way up into May, but you're not going to get big hunks later on 
in the period. That we know from lots of experience.
    So the important thing is that we will know early--that is, 
a good 2 weeks before when we have to actually begin to put in 
a non-response followup process into place. Therefore, when I 
say ``come back and talk to Congress,'' I mean that fairly 
seriously. It's not just a throw-away line.
    But the important thing is that by the time we actually had 
a hearing, on April 12th, we would have come in with very clean 
plans and with a budget that would be required to sort of get 
us out of this hole which we would have found ourselves in.
    Sorry for that long answer.
    Mr. Miller. As you know, the Congress has responded with 
supplementals in the past, and we stand prepared to move as 
quickly as necessary, but it is encouraging that 61 percent is 
kind of the lower end of your expectations, we hope. One time 
you were projecting, I think, 67 percent, and it dropped.
    Dr. Prewitt. Right. That was the second mailing question.
    Mr. Miller. OK.
    Mrs. Maloney.
    Mrs. Maloney. Yes. Thank you very much.
    I would like to followup on some of the chairman's 
questions. Do you have examples of your three mailers with you 
that are going to be going out?
    Dr. Prewitt. No.
    Mrs. Maloney. You don't?
    Dr. Prewitt. Sorry.
    Mrs. Maloney. Could you send it to us?
    Dr. Prewitt. Yes.
    Mrs. Maloney. Could we have a look at it? I'd just like to 
see them. And maybe we could have them as part of the record so 
we just have it as part of the official record.
    Dr. Prewitt. Yes. Sorry.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6280.024
    
    [GRAPHIC] [TIFF OMITTED] T6280.025
    
    [GRAPHIC] [TIFF OMITTED] T6280.026
    
    [GRAPHIC] [TIFF OMITTED] T6280.027
    
    [GRAPHIC] [TIFF OMITTED] T6280.028
    
    [GRAPHIC] [TIFF OMITTED] T6280.029
    
    [GRAPHIC] [TIFF OMITTED] T6280.030
    
    [GRAPHIC] [TIFF OMITTED] T6280.031
    
    [GRAPHIC] [TIFF OMITTED] T6280.032
    
    [GRAPHIC] [TIFF OMITTED] T6280.033
    
    [GRAPHIC] [TIFF OMITTED] T6280.034
    
    [GRAPHIC] [TIFF OMITTED] T6280.035
    
    [GRAPHIC] [TIFF OMITTED] T6280.036
    
    [GRAPHIC] [TIFF OMITTED] T6280.037
    
    [GRAPHIC] [TIFF OMITTED] T6280.038
    
    [GRAPHIC] [TIFF OMITTED] T6280.039
    
    [GRAPHIC] [TIFF OMITTED] T6280.040
    
    [GRAPHIC] [TIFF OMITTED] T6280.041
    
    [GRAPHIC] [TIFF OMITTED] T6280.042
    
    [GRAPHIC] [TIFF OMITTED] T6280.043
    
    [GRAPHIC] [TIFF OMITTED] T6280.044
    
    [GRAPHIC] [TIFF OMITTED] T6280.045
    
    [GRAPHIC] [TIFF OMITTED] T6280.046
    
    [GRAPHIC] [TIFF OMITTED] T6280.047
    
    Mrs. Maloney. I'd like to turn to the transparency issue. 
Dr. Prewitt, you have spoken before about the unprecedented 
level of scrutiny the 2000 census is receiving from various 
oversight groups, everyone from this subcommittee to the Census 
Monitoring Board to the National Academy of Sciences and the 
Secretary of Commerce's Advisory Committee is involved. In 
fact, I understand the National Academy recently had another 
meeting to review the Bureau's planned statistical design.
    In many respects, this will be the most transparent census 
our Nation has ever had. Would you please outline the major 
events that have occurred in this regard since we met with you 
last fall? And is there another group that is reviewing you 
that I didn't mention? Just address the entire transparency 
oversight issue, if you would elaborate and give us more 
information on it.
    Dr. Prewitt. Yes. Well, I do think the GAO reports that 
have emerged since last fall have been a major part of this. I 
think that, as this committee requested, the GAO did do a 
thorough review of the revised budget, the $1.7 billion, and 
asking the understandable question of making certain that this 
$1.7 billion was associated with new procedures that we had to 
put in place because of the Supreme Court ruling, and I think 
the GAO report did confirm that. It was a very, very intensive 
analysis of our budgeting and of our operations.
    There was also, of course, the GAO report on the LUCA 
program. There is now, most recently, one on the data capture.
    So I would say that, in terms of the oversight activities, 
the GAO has certainly done the most sophisticated and sustained 
research and investigation.
    The Inspector General's office, of course, has also 
conducted, when appropriate, its own independent 
investigations. It did one on the advertising campaign, to make 
certain that this money was well spent, was appropriately 
spent. We got very good marks from that review.
    The Monitoring Board has issued a number of reports, 
sometimes independently from the Presidential and congressional 
side--I guess I would say mostly independently. The one that 
was joint was on the advertising campaign. That was also very 
favorable. The Monitoring Board, the congressional side of the 
Monitoring Board, just issued one on the undercount issue. I 
actually just got that this morning. I read drafts of it, but I 
can't give you in detail what they are saying.
    And, of course, we've had hearings with this committee. And 
we do have a number of advisory committees, some six or seven 
of them, that do meet quarterly. That means we have one meeting 
almost all of the time.
    So we do think that we have been enormously responsive to 
the understandable interest of this country in how well census 
2000 has been planned.
    I think the most important thing I can say, Mrs. Maloney, 
about the review that has taken place since then--and I don't 
mean to judge my judgers harshly, but mainly the message is 
that things are on track and on schedule, but there are still 
risks.
    Now, they don't necessarily say what to do about them, 
other than this is a big, complicated operation and, therefore, 
something could go wrong--including that we could have a lower 
than anticipated response rate or we could have trouble with 
recruitment.
    We understand those risks. We are doing everything we can 
to compensate for them.
    So I would say that out of that effort we have yet to be 
challenged to do something major that is different from what we 
are already doing.
    Just quickly, on the National Academy of Science meeting, 
which was a very important meeting--it was a big public venue--
the leading critics of dual system estimation were invited to 
make presentations and there was a lively exchange between the 
critics and supporters. It was a very important meeting for us. 
We took back some bits and pieces of things where we could 
improve, but, again, it did not challenge the heart of what our 
design is in any kind of sustained, systematic way that led us 
to sort of say, ``Oh, my goodness, we'd better not be doing 
what we are doing.'' I think quite the opposite--we felt 
reasonably confident with what we had put before them.
    We will have other meetings with the National Academy of 
Science, with their advisory committees and so forth.
    Mrs. Maloney. Thank you.
    May I ask another question?
    Mr. Miller. OK. We're going to do another round, too.
    Mrs. Maloney. Let me ask him really quick, because you 
really went over, too.
    Dr. Prewitt, last week I introduced legislation which would 
create a contingency fund of $100 million for the census 2000. 
This fund could be accessed if you ran into any types of 
serious problems such as, for example, the mail response rate 
drops significantly, as you mentioned, or the recruitment rate 
was very low.
    My bill also expands the labor pool for the 2000 census 
among certain specific groups, including active duty members of 
the military, those receiving certain Federal benefits, and 
Federal retirees who have Federal buy-outs.
    Have you had an opportunity to review this legislation?
    Dr. Prewitt. Yes, I have.
    Mrs. Maloney. I'd like your comments on it, please.
    Dr. Prewitt. Yes. If I could take up first the issue of 
expanding the recruitment pool, we, obviously, welcome anything 
that will expand the recruitment pool. Even though, as I've 
just testified, we are on schedule, there's something about a 
recruitment pool which is always soft. You never know when it 
is going to go--tomorrow morning the phones could quit ringing. 
We don't expect that to happen, but they could, so we are still 
in a mode where we are making every effort to increase the 
recruitment pool.
    I would say, with respect to the part of the legislation 
which addresses the waiver issues, that obviously at a certain 
point it will be too late. We are at 1.2 million now. We just 
simply need all the help we can get this week and next week. So 
I would urge the Congress, if it can act on those issues, to do 
so expeditiously or it will simply be past the point where we 
can take much advantage of it.
    With respect to the contingency fund, as I have said in our 
own response to the GAO report, obviously--and as I just said 
to the chairman--I might say in the chairman's defense the 
reason that his time went over 10 minutes is I talked about 10 
minutes in response to one question. It is hard for us to 
imagine that if we have a response rate seriously below 61 
percent that we will be able to complete the census and provide 
the apportionment numbers on schedule without additional funds. 
I just don't know what else we could say. There's nothing else 
that we could do.
    I would say about this specific amount that you've 
mentioned in your appropriation that the amount is hard to know 
at this time because a 55 percent response rate kicks into 
place perhaps a different number than the number that you've 
put there. A 59 percent response rate--if other things have 
gone very well--we might not need additional money. We might 
then have to come back to the U.S. Congress--as you know, we're 
under a restriction not to move moneys across frameworks. We 
might have to come back and say, ``Look, we might want to move 
some money across a framework in order to reach this.''
    So it's hard for me to sit here today, for the reasons that 
I've tried to explain a moment ago, to specify the amount that 
we would need because it is so dependent upon the interaction 
between the response rate and the quality of the recruitment 
pool at that time.
    Mrs. Maloney. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Miller. Mr. Ryan.
    Mr. Ryan. Hi, Dr. Prewitt. Thanks for coming by. I know you 
are a busy guy, so we want to let you get back to your job.
    I just have one quick question I want to ask you. I have 
toured my local census office twice since they have been up and 
running. I represent the First District of Wisconsin, and that 
would be your Racine office. I think the number is 2546.
    In each occasion that I visited with the workers of your 
local census office 2546, they've presented me with a problem 
that they have in recruiting, and it's in a letter I wrote to 
you on January 20th. I haven't had a response yet. It is this: 
they're not getting their paychecks on time. In one instance, 
they waited 6 weeks for the last paycheck, the workers at the 
census office.
    They're still telling me--I spoke with them actually 2 days 
ago--that they are still not getting their paychecks on time. 
They believe that this is critical toward not only attracting, 
but maintaining, a good work force.
    My concern is that if this is happening all across the 
country, let alone in our Racine office, and people are being 
hired but not being paid, not even being paid for 6 weeks--you 
know, 2 days I can understand, but 6 weeks, that's going to 
hurt our ability to retain the work force we need.
    Is this a problem that is occurring across the country? Is 
this isolated to local census office 2546, or the Chicago 
region? Or, if this has been a problem, has it been solved? It 
apparently hasn't been solved in my neck of the woods. Could 
you comment on that, please?
    Dr. Prewitt. Well, I'm going to ask Marvin Raines to join 
me, if I can.
    Mr. Ryan. Please.
    Dr. Prewitt. I would say, in general, Mr. Ryan, that it has 
almost got to be an isolated problem, because if it were across 
the country it would be a very, very major crisis at this 
stage.
    Mr. Ryan. That's what I thought, too.
    Dr. Prewitt. And it is exactly the kind of crisis that I 
would feel obligated to bring to the committee's attention, 
because it is something that could put the census in jeopardy 
if we are unable to pay our employees on a regular basis.
    With respect to that particular office, can we offer some--
--
    Mr. Raines. I'm afraid I can't offer anything right now.
    Dr. Prewitt. We're a little surprised.
    Mr. Ryan. Well, I sent you a letter on January 20th this 
year, almost a month ago. I CC'd Stanley Moore, the director of 
the Chicago office. I sent it to you. I would just read it to 
you briefly, and then I won't chew up much more time.
    Dr. Prewitt. We think we are in fairly good shape with 
respect to responding to congressional letters. Honestly, Mr. 
Ryan, our system doesn't seem to----
    Mr. Ryan. Well, I sent you a followup letter on January 25, 
as well, asking for response to the first letter. So I've sent 
you two letters, one on the 20th and one on the 25th.
    You're at the Bureau of Census, right? That's the address I 
used.
    Dr. Prewitt. I'm with Statistics.
    Mr. Ryan. Suitland Federal Center, room 2049, Building 
Three.
    Dr. Prewitt. I don't doubt your address.
    Mr. Ryan. Here's the point.
    Dr. Prewitt. Yes.
    Mr. Ryan. They're not getting paid at the Racine office. 
They've lost some people because they're not getting paid, so 
it is hurting their ability to attract workers. I hope it is an 
isolated incident, but if it isn't, please, please look into 
this.
    Dr. Prewitt. We'll be in touch with your office tomorrow.
    Mr. Ryan. OK.
    Thank you. That's all I have.
    Mr. Miller. Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Dr. Prewitt, we hear people talking about the difficulty of 
recruiting. Is that just in certain areas, or is it across the 
board?
    Dr. Prewitt. Well, the most important thing to say is that 
we have met every recruitment goal that we've had where we've 
had to have so many people in place for a given operation to 
date. That is, we've hired a total of about 160,000 people for 
our different operations to date for our address listing work 
across the country. Certain areas were harder than other areas, 
but we hired everyone. We had to hire a lot of people for our 
Alaska work. Of course, all of those were there on time.
    We have 520 offices. Each of those have four managers. 
That's obviously slightly in excess of 2,000 persons. All of 
those have been hired.
    So in none of the operations which hit a schedule 
obligation were we not able to find the number of people we 
needed.
    Now, the next big one, as I said, starts on March 3rd with 
the update/leave. I actually provided you a table in your 
document, and you will see that across our 12 regions plus 
Puerto Rico--that's in attachment A--what you have there is the 
recruiting goal for the update/leave operation, which is the 
next one, which is a quite substantial set of recruiting goals. 
But in every region save one we are well above our target.
    Now, the problem with the newspaper articles is that you've 
got different operations in different regions. It's a very 
complex system. You know, when do you need how many people to 
do this operation and that operation? I don't want to sit here 
today and promise you we will not have a recruitment problem, 
but no operation in census 2000 has not gone forward on 
schedule because of a recruitment problem.
    Mr. Davis. But you're saying also that the goals are not 
necessarily the same in every place.
    Dr. Prewitt. They're extremely different because they are 
different operations. Where you have a large update leave 
operation, you've got to have a lot of people in your 
recruitment pool right now because you're going to need them in 
about 3 weeks.
    Non-response followup starts April 27th. You actually don't 
want--because a recruitment pool can also go sour, you know, 
you think you've got it all, but by the time you don't call 
them back for a month they say, ``Well, they must not want me. 
I'll go do something else.''
    So there is an extremely complex set of operations and 
recruitment strategies you've got going on simultaneously.
    The big picture I gave you is the accurate one, which is--I 
think it is as of February 6th we were running about 5 percent 
ahead of our national goal--not in every region, of course, and 
not in every local office.
    Mr. Davis. Are you hearing anything that's alarming coming 
from any of the what we call ``hard to count'' or ``most 
difficult to count'' communities and population groups?
    Dr. Prewitt. We are not thus far. Again, I can only say 
thus far. We are not hitting particularly complicated pockets, 
like we can't get enough Hispanic enumerators, or we're not 
doing very well in the inner cities. There are always small 
pockets, but there's no pattern to suggest that we're going to 
not be able to hire the enumerators from those areas as of now.
    I was saying to the chairman before the meeting, I, myself, 
am trying to understand where so many of these applicants are 
coming from.
    I just yesterday got some data from the Labor Department. 
The Labor Department has a new category in its presentation of 
the employment status of the civilian population that it has 
just added. It's, ``Persons who currently want a job but who 
are not in the labor market.'' That is, they don't meet the 
test of people who have been actively seeking a job, which is 
what puts you in the labor market, but this is a new category 
of people actually who would take a job or are interested in a 
job but haven't yet been actively seeking it.
    By the estimate from the Labor Department, that totals 
4,552,000 people, nearly as many people as are unemployed. That 
is, there are a lot of people looking for a job and we think we 
must be getting them. There are about 9 million people between 
the ages of 55 and 65 who are not in the labor market. We are 
getting them. Out of our total applicant pool, more than two-
thirds are women and more than two-thirds are over 40. So we're 
getting into some kind of recruitment pool that we didn't 
expect to get to.
    Our last count, we have 70,000 people in our applicant pool 
who are non-citizens. We did not have that in 1990.
    So we're putting lots of pieces together. We want to 
understand this, ourselves. We want to understand why it seems 
to be going well, because if it is we are less likely to run 
into a problem, so we're studying every day what is accounting 
for the fact that we are running ahead of schedule.
    There may be a particular problem in a particular office in 
Racine that I'm simply not aware of, but I can only tell you 
that if this were an across-the-board crisis, either for 
payment reasons or recruitment reasons, I would have to be 
sharing that with you. I don't want to surprise this committee 
with something of that magnitude.
    Mr. Davis. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Miller. We're going to have another round, and Mr. Ryan 
has to go to another meeting, so let Mr. Ryan go first and then 
we'll go.
    Mr. Ryan.
    Mr. Ryan. I won't belabor the point about our Racine, WI, 
office, Dr. Prewitt, but I would very much appreciate your 
timely response to that and hope that this isn't occurring in 
other parts of the country.
    I'd like to ask, Mr. Chairman, that some articles be 
included in the record.
    Mr. Miller. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6280.048
    
    [GRAPHIC] [TIFF OMITTED] T6280.049
    
    [GRAPHIC] [TIFF OMITTED] T6280.050
    
    [GRAPHIC] [TIFF OMITTED] T6280.051
    
    [GRAPHIC] [TIFF OMITTED] T6280.052
    
    [GRAPHIC] [TIFF OMITTED] T6280.053
    
    [GRAPHIC] [TIFF OMITTED] T6280.054
    
    [GRAPHIC] [TIFF OMITTED] T6280.055
    
    Mr. Ryan. What these articles indicate--and I'm just 
interested in your testimony where you cite that Boston is the 
only region with a low applicant pool. I see the chart in your 
testimony, but a couple days ago--I think it was at your press 
briefing on the 2nd--you said that you were behind in Atlanta 
and Detroit. In addition, we see a lot of these media accounts 
that suggest that both the Navajo and Cherokee Nations are not 
applying for census employment at the requisite rate.
    Can you reconcile these media reports and your discussion 
at your last press briefing on Detroit and Atlanta with your 
current testimony of Boston as being the only problem?
    Dr. Prewitt. Yes, sir. The comment I made at the press 
conference the other day about Detroit and Atlanta, I believe, 
was actually based upon a different set of data from the data 
that we put in attachment A, which is why there is some 
difference. And, indeed, things move very fast. In fact, I 
think it is Atlanta where we were behind our overall goal, and 
we moved that up by over 5 percent over the weekend.
    We have all kinds of things we begin to do when we see that 
curve starting to slip. We double or increase the number of 
recruitment assistants that we have in place. We have the 
capacity to do that.
    So if somebody is running well ahead of schedule, they're 
getting less recruitment money, less recruitment advertising. 
Somebody below, they suddenly get more personnel to do the 
recruiting and more advertising money.
    So that set of data that I talked about at the press 
conference is, one, old data. You know, it is 10-days-old data. 
The data that we put before you today primarily focuses on the 
update leave, because that's our next major operation, and I 
thought that's what you would be most interested in learning 
about.
    The press reports that one can see, the Window Rock--I 
looked at the Window Rock data, for example. By our account, 
we're way ahead of our target in Window Rock for update leave, 
which is the big operation that we have in the Navajo Nation, 
so I can't explain that story.
    Part of what happens is that, you know, you say, ``We're 
halfway there.'' We only need to be halfway there. And the 
press decides, ``My goodness, they're only halfway there.''
    Mr. Ryan. Yes.
    Dr. Prewitt. And so that becomes the story. Or sometimes 
you will have a local recruiter or somebody who works for the 
Census Bureau who decides to use the press to generate a little 
anxiety in the community to try to improve the applicant rate.
    So a lot of things are happening in these press stories. 
All I can really say is that if we had a national problem right 
now on the recruitment front I would have presented to you 
different testimony. Nothing would be more foolish than for me 
to come and sound reasonably optimistic right now about our 
recruitment efforts and then to have to come back to you a week 
from now and say, ``Guess what? It doesn't look like it is 
going to happen.'' I would much rather err on the side of 
caution than optimism on something as critical as this.
    So all I can repeat is that nationally we are ahead of 
schedule. With respect to our operations, we are already 
there--that is, with respect to the immediate operations--and 
that certainly includes the Navajo Nation, which is a big 
update leave area.
    And so I can't explain that Window Rock press story.
    Mr. Ryan. OK. Well, I look forward to your answer on our 
paycheck problem.
    Dr. Prewitt. May I now correct the record? We have received 
your letters, and I'm sorry that I did not know that, but we 
have received your letters. Both the field office and the 
region are investigating, and I will have an answer to you by 
the end of the week making this very clear exactly what is 
going on.
    Mr. Ryan. OK.
    Dr. Prewitt. And I should say that if there were widespread 
pay problems, that word would be getting out.
    Mr. Ryan. That was my concern. In Racine in our office we 
have a 6-week delay. It's hurting the recruitment. I was 
concerned that this was happening somewhere else.
    Dr. Prewitt. Sure. That's understandable. Thank you. Great.
    Mr. Ryan. Thank you. I yield back the balance of my time.
    Dr. Prewitt. And not to forget we have all these--you've 
seen all of our launch books and all of our--what did you use 
to call them? Flight schedules.
    Mr. Ryan. That's right. Yes. We're going to take a look at 
those a little later. Thanks.
    Mr. Miller. Mrs. Maloney.
    Mrs. Maloney. After you.
    Mr. Miller. OK.
    Let me bring up a question about ACE, just briefly. I know 
you're working on it. I know at the meeting last week you 
mentioned the Janet Norwood Committee. And I know it is still 
in the process.
    What is the timeline to have a plan ready for us to have a 
hearing? I don't want to interfere and have a hearing on it in 
the middle of the census, but I think the public needs to be 
aware of it.
    I'm glad the meeting, from what I've heard about it last 
week, it was a very open discussion and all sides were heard 
and that's good.
    Dr. Prewitt. Yes.
    Mr. Miller. And I know we have a difference of opinion on 
that issue, but----
    Dr. Prewitt. Well, I think we don't have a difference of 
opinion about the importance of doing an ACE. I think we all 
know that we want to do the quality check on the census, and 
there's no other way to do a quality check other than to go 
back and find out how well you did, and that's what ACE does.
    I think there is a difference of viewpoint about whether it 
should be used to adjust the data, but not the ACE, itself. And 
I think that certainly the debate in front of the Norwood 
Committee, which was a quite constructive debate, really just 
focused on that issue, and not at all focused upon the fact 
that the Census Bureau should or should not have an ACE and do 
dual system estimation.
    I think maybe the most interesting thing that emerged in 
that discussion, which we are prepared to talk about to this 
committee any time--I mean, I appreciate your sensitivity to 
where we are, but a somewhat different set of people could put 
together material for this committee if they would like to have 
a hearing on ACE.
    We are where we need to be on that schedule, as well. We 
needed to have listed all of our ACE sample blocks. Those are 
now all fully listed. We are now doing the check of the 
housing--the address work between that and the census file. So 
we are moving along on schedule with respect to that operation, 
as well.
    Mr. Miller. Hiring and opening offices, are you opening 
separate----
    Dr. Prewitt. That's much further down the line, and that 
won't happen until the summer.
    Mr. Miller. How many offices will be involved? Do you know 
offhand, the different staff?
    Dr. Prewitt. We actually run the ACE out of our census 
offices, not out of our decennial census offices, but our 
standard regional offices.
    Mr. Miller. But you'll be hiring separate staff?
    Dr. Prewitt. Not really. We will depend on the most 
successful interviewers from the non-response follow-up [NRFU] 
operation for ACE. In order to further support independence of 
the ACE, enumerators will not be allowed to work in the same 
blocks they were assigned during nonresponse followup.
    Mr. Miller. What's the timeline for ACE? When does that 
begin?
    Dr. Prewitt. ACE could begin as early as late May for 
certain LCOs that have completed NRFU. ACE will be carried out 
on a flow basis as each completes its work.
    Jay Waite will give you the details.
    Mr. Waite. We actually begin our ACE interviewing on an 
LCO-by-LCO basis right after we are sure we're through with 
non-response followup. Because of the independence, we don't 
want interviewers out there in the blocks trying to do ACE 
interviewing and then have the census enumerators that are 
there doing non-response followup become aware that their block 
is one that is being checked, so they would work extra hard or 
maybe not as hard on it.
    As far as the interviewer pool, because of the independence 
it's possible that people working on non-response followup 
would also work on ACE, but they would not work in the same 
area where they had worked on non-response followup.
    Once they've gone to do any work on the ACE, they are not 
able to go back and work on any part of the census, because we 
are trying to make sure we have the independence.
    We have an office we call an ACERO office, which is 
basically associated with our regional census centers. That's 
for independent purposes so that people don't know in the local 
census offices where these particular blocks are.
    Associated with each LCO or in the general vicinity of each 
local office there's a small amount of space where supplies are 
kept, which has a separate entrance that people working on the 
individual ACE survey could get to, but that's physically 
separate with a separate lock and a separate entrance from the 
regular LCO.
    Mr. Miller. What happens if the mail response rate is 
significantly below 61 percent? How does that affect ACE? You'd 
have to be in the field longer, as you said.
    Mr. Waite. In any individual LCO, to the extent that we did 
not get non-response follow-up done on time, we would not be 
able to start ACE on time. I mean, we cannot be out there doing 
both operations at the same time.
    Mr. Miller. Right. There's a contamination.
    Mr. Waite. So I say it is on an LCO-by-LCO basis.
    Mr. Miller. Right.
    Mr. Waite. If 6 weeks into the operation a particular LCO 
essentially had their non-response followup done, we could 
begin doing ACE in that LCO.
    Mr. Miller. Yes.
    Mr. Waite. But we wouldn't start in any LCO until the non-
response followup for that LCO was completed.
    Mr. Miller. Yes. Dr. Prewitt, I believe that we need a 
quality check. I think that's expected and appropriate and all 
that. But I do have serious concerns about both the legality 
and the statistical validity of adjusted data by census track 
or census blocks and the adjusted set of numbers the way 
they're used, their validity.
    I think there is a legitimate debate within the statistical 
community, and certainly within the legal community, on that 
issue. At some stage, we will want to discuss it in more 
detail.
    Mrs. Maloney.
    Mrs. Maloney. Thank you. Thank you, Mr. Chairman.
    Our country, Dr. Prewitt, is experiencing the lowest 
unemployment levels in recent history, with an exceedingly 
tight labor market, yet you seem to be reaching your 
recruitment goals. I'd like your comments to further help us 
understand why you're able to reach them, even with this 
extremely tight labor market.
    One of the cities or areas that was the most under-counted 
last time was my own great home State and city of New York, and 
I just would like to know how the recruitment process is going 
in New York. Are there any specific problems? And do you know 
what percentage of your recruitment goals you've reached in New 
York?
    If you don't have that with you, you could get back to me 
later in writing.
    Dr. Prewitt. Well, I can certainly give you the New York 
region. I can't give you right now New York City and I can't 
give you your District.
    New York region actually is ahead of target. It is at about 
50 percent of its overall target for the general operation, and 
for non-response followup, of course, since there are very few 
in the New York region, we have no trouble whatsoever 
staffing--I'm sorry, for mail-back update leave operations, we 
have no difficulty whatsoever meeting that target. So we will 
clearly be doing the New York region operations on schedule.
    New York City, of course, is a fairly difficult city to 
count, and this goes to the issue that Mr. Waite just 
addressed.
    We have to make an LCO-by-LCO decision, and not all LCOs 
will be finished in 10 weeks, and New York was one of the areas 
in 1990 where we had to keep the LCOs open somewhat longer.
    One of the important things we've done in 2000 is to look 
at the areas which gave us the hardest time in 1990 and 
compensate for that in our recruitment effort, in our planning, 
in our supervision, and so forth. So it's not as if we don't 
know the areas where we are going to have the hardest non-
response followup effort and that we haven't already done what 
we can to build in and deepen the capacity for those areas.
    Mrs. Maloney. Yes.
    Dr. Prewitt. Nevertheless, these are very difficult areas 
to count.
    Mrs. Maloney. Thank you. I understand that next week--and 
you mentioned it in your opening statement--that the Bureau 
will be kicking off a major new promotional effort for the 
census 2000 road tour. Can you give us some details? Will there 
be one of these road tours in New York? Where are these? You 
said there will be 10 of them. Could you just elaborate?
    Dr. Prewitt. There will be 12, 1 in each region, and each 
have an independent schedule, and obviously targeted on the 
hard-to-count areas. So yes, there certainly will be one in New 
York, indeed. Without perhaps revealing too much, I can say 
that the kick-off event, itself, will actually start in 
downtown, New York.
    Mrs. Maloney. Really?
    Dr. Prewitt. The big national launch of it will be on 
national television at an event that we have reason to believe 
will be very widely seen.
    Mrs. Maloney. OK. Great. The paid advertising campaign is 
now in full swing, and I understand it is probably too early to 
have measured any impact from the campaign, but has there been 
any oversight done on the campaign now? What sort of evaluation 
do you plan to do on the ad campaign to see, in fact, if it is 
working?
    Dr. Prewitt. Well, we have a fairly extensive evaluation 
effort that's underway. We did a baseline survey under contract 
to NORC at the University of Chicago, and then we do a mid-term 
evaluation, then we do a followup evaluation after the census 
is over that tries to gauge the impact of the advertising 
campaign.
    We are exploring ways to even deepen that evaluation work. 
Obviously, Young & Rubicam, which is represented here today, 
can also comment on this. They do their own internal work, as 
well--that is, the advertising industry actually tries to study 
the impact of ads.
    I might say that one of our partners did a nice thing for 
us. They were studying the ad campaign for the Super Bowl, and 
they included a look at the Census Bureau ad, which was 
mentioned by both of you. Of the people who watched the Super 
Bowl, 46 percent said they remembered having seen the census 
ad, and of those 46--which is a huge number of people.
    Mrs. Maloney. That's great.
    Dr. Prewitt. Of those 46 percent, 44 percent said it would 
motivate them to complete the form, and the rest said it 
wouldn't have effect one way or the other, because maybe they 
were already going to complete the form. And no one said that 
it would act as a deterrent.
    And then we asked a third question, or a third question was 
asked on our behalf by our partner agency, and that question 
was: Are you the person in the household who is most likely to 
fill in the census form? And my recollection is about 75 
percent of the respondents were that person.
    So we felt very good about that. This did break through. It 
did get noticed. And it was motivating.
    Mrs. Maloney. That's very good news. I was watching 
television around the Super Bowl, and they started rating the 
ads from the last Super Bowl, so it will be interesting if our 
census ad is up there at the top and wins the prize for having 
had the most impact on the people.
    Dr. Prewitt. I will say, on behalf of Young & Rubicam, they 
had obviously not designed that ad to be on the Super Bowl, 
because it turned out to be not as expensive to get that ad 
placement as it might have otherwise been because of the time 
that it was chosen, and also they were up against some very 
tough competition. That is, you're up against people who are 
spending millions and millions of dollars just to design the ad 
just for the Super Bowl. So there was a little hesitancy about 
the competitive environment for the ad.
    But, nevertheless, the decision was it was worthwhile 
making the effort, of course, on behalf of the census, and we 
were all pleased at the initial responses that have come back 
in from the agency, from the advertising researchers. It does 
suggest it more than held its own in terms of the quality of 
the ad, itself.
    Mrs. Maloney. Well, how many ads will the average American 
see? And will people in traditionally under-counted 
neighborhoods see more ads than an area that may be over 
counted?
    Dr. Prewitt. Yes. Our estimate is or Young & Rubicam's 
estimate is that the typical media consumer in the African 
American population, the hard-to-reach African American 
population, will receive about 122 impressions--that's 
television, radio, print, and so forth--122 different 
impressions, and the typical Hispanic media consumer will--I 
think the number is 105 impressions. Most of us will probably 
see in the neighborhood of 20 impressions, because we're simply 
not the consumers of the targeted media that is going after the 
hard to count.
    So there is a huge difference. I mention that because if 
you don't see a whole lot of advertising you may not think a 
whole lot is out there, but it may well be your media 
consumption habits.
    Mrs. Maloney. My time is up. Thank you.
    Mr. Miller. The ad that was used was, I think, maybe one of 
our favorites of the ones we saw, but that's tough competition 
to run ads on Super Bowl because that's the Super Bowl of 
advertising, at least in my opinion, and you see the hurting of 
cats and the dog for the Budweiser crashed in the van and all, 
but actually that was one of the cuter ones, so it was good to 
see that one.
    I'm glad we have a degree of optimism at this stage. I 
think we are going to have another hearing on March 8th, to 
kind of have the status and the update. I appreciate that.
    I ask unanimous consent that all Members' and witnesses' 
opening statements be included in the record. Without 
objection, so ordered.
    Mrs. Maloney. May I add one more question, because I don't 
get this opportunity often and I want to find out from Dr. 
Prewitt how it's going.
    Mr. Miller. Yes.
    Mrs. Maloney. It sounds like the paid ad campaign is doing 
very well. Could you inform us about the public service 
announcements? And are you meeting your goals? Has the paid 
advertising campaign helped increase leverage for the placement 
of public service ads with the networks? If I recall, in 1990 
we relied totally on pro bono and public service. If you could 
give us an overview.
    Dr. Prewitt. Just quickly on that, the total dollar amount 
of value added advertisement is already $8.7 million. That is, 
our ad campaign has been increased by 8.5 percent just on value 
added.
    Just before we came to this hearing we had a marvelous 15 
or 20 minutes with Young and Rubicam, where they were showing 
us the rough cut of three new ads that are pro bono ads, public 
service ads. They feature Ivan Rodriguez, Barry Bonds, and 
Derek Jeter--that is geographic spread, ethnic spread, of 
course, these three very, very key baseball players, in very 
high-quality ads, delivering the confidentiality message.
    We already know that those ads will be used in the public 
service announcement space of NBC, and we are fairly certain 
other networks--it's going to be shown, for example--am I 
saying more than I should be saying?
    Voice. No. That's all right.
    Dr. Prewitt. I just don't know what's public record yet. It 
will be shown during the NBA finals, for example. And they will 
all be shown on the opening day of baseball season, which, of 
course, is a very big media event, and it's still early enough 
to try to have a little bump, even though we're in early April 
by then.
    These are very creative ads, very powerful ads. We think 
they are such good ads that they are likely to be used 
disproportionately as public service ads because they are so 
attractive.
    Mrs. Maloney. The chairman has informed me that he has a 
conflict. He has to be at another hearing. I have about five 
more questions I wanted to cover. May I submit them to you in 
writing?
    Dr. Prewitt. Yes.
    Mrs. Maloney. And if you would respond, I'd appreciate it.
    Dr. Prewitt. Certainly.
    Mr. Miller. In fact, I think I was flying up here the day 
after the Super Bowl and the ``USA Today'' I was reading had 
actually a rating of all the ads on Super Bowl Sunday, and we 
were right in the center, and with that competition.
    Mrs. Maloney. Should have been No. 1.
    Mr. Miller. Well, we sure weren't in the bottom 10 which 
they listed also.
    Mrs. Maloney. Our cause is No. 1.
    Mr. Miller. That's right. But we don't hurt cats. But at 
times you think you may be herding cats.
    In case there are any other additional questions that 
Members may have for our witnesses, I ask unanimous consent for 
the record to remain open for 2 weeks for Members to submit 
questions for the record, and that Dr. Prewitt submit written 
answers as soon as practical.
    Without objection, so ordered.
    I have to run to another hearing. Thank you very much for 
being here, and good luck.
    Dr. Prewitt. Thank you, sir.
    [Whereupon, at 3:28 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T6280.056

[GRAPHIC] [TIFF OMITTED] T6280.057

[GRAPHIC] [TIFF OMITTED] T6280.058

[GRAPHIC] [TIFF OMITTED] T6280.059

[GRAPHIC] [TIFF OMITTED] T6280.060

[GRAPHIC] [TIFF OMITTED] T6280.061

[GRAPHIC] [TIFF OMITTED] T6280.062

[GRAPHIC] [TIFF OMITTED] T6280.063

[GRAPHIC] [TIFF OMITTED] T6280.064

                                   - 

</pre></body></html>
